<html>
<title> - THE U.N. HUMAN RIGHTS COMMISSION: THE ROAD AHEAD</title>
<body><pre>[Senate Hearing 107-55]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-55

            THE U.N. HUMAN RIGHTS COMMISSION: THE ROAD AHEAD

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON INTERNATIONAL OPERATIONS
                             AND TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-071                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                 ------                                

         SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND TERRORISM

                    GEORGE ALLEN, Virginia, Chairman
JESSE HELMS, North Carolina          BARBARA BOXER, California
BILL FRIST, Tennessee                JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                BILL NELSON, Florida
                                     JOSEPH R. BIDEN, Jr., Delaware

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Dobrianski, Hon. Paula J., Under Secretary of State for Global 
  Affairs, Department of State, Washington, DC...................     4
    Prepared statement...........................................     6
    Responses to additional questions for the record from Senator 
      Helms......................................................    12
Malinowski, Tom, Washington Advocacy Director for Human Rights 
  Watch, Washington, DC..........................................    20
    Prepared statement...........................................    23
Shea, Nina, Director, Center for Religious Freedom, Freedom 
  House, Washington, DC..........................................    14
    Prepared statement...........................................    17

                                 (iii)

  

 
            THE U.N. HUMAN RIGHTS COMMISSION: THE ROAD AHEAD

                              ----------                              


                         THURSDAY, MAY 24, 2001

                           U.S. Senate,    
              Subcommittee on International
                          Operations and Terrorism,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. George Allen 
(chairman of the subcommittee) presiding.
    Present: Senators Allen and Boxer.
    Senator Allen. The subcommittee will please come to order. 
We have a hearing today on the United Nations Human Rights 
Commission: The Road Ahead. This hearing today is clearly on 
the subject of the United Nations Commission on Human Rights 
and in the vote for the Commission members in 2002 which took 
place in the U.N.'s Economic and Social Council just a few 
weeks ago the United States lost its seat on the Commission for 
the first time since 1947.
    Unfortunately, this appears to have been directly resulting 
from our European allies' refusal to work together with us to 
form an agreed slate of candidates for the West's three seats 
at stake. We will talk about the implications of that. We have 
witnesses. Senator Boxer is the ranking member on this 
subcommittee, and may soon be the chairperson of this 
subcommittee very shortly, but hopefully she will be here, and 
other members of the subcommittee.
    So with that, I will give the balance of my statement. If 
Senator Boxer arrives before Ms. Dobriansky's statement, then 
Senator Boxer will make her statement. But when she comes, I 
hope you will all work with us as we go through the panels here 
in testimony on this matter.
    Now, the unfortunate turn of events as far as the U.N. 
Human Rights Commission. In this occasion, we want to look at 
several important issues. Initially, we first need to assess 
how useful is the United Nations body, especially since it is 
supposed to be a voice for the world on human rights, but it is 
full of undemocratic members. If Sudan goes onto the Human 
Rights Commission and the United States comes off, should we 
not be asking if this institution may need some reforms?
    Maybe the United States should insist that nations that 
have been censured by the Commission, like Cuba, should be 
ineligible to be members of this Commission for a period of 
time. Or maybe some other body, like an organization of the 
world's democracies, would be a better forum to promote freedom 
around the world.
    Without the United States on this Commission, now the 
European Union, or the EU, will be forced to be on the front 
line in the fight for human rights. This is a change from the 
past, when the EU has been able to let the United States take 
the lead while the EU tended to treat dictatorial governments 
like Libya or Cuba as ordinary countries. I hope to look to see 
if the Europeans' conciliatory approach in the Commission, for 
instance regarding China, and see if it improves the human 
rights records of repressive governments.
    We should look at why the Europeans and other members of 
the Western Europe and Other Group states, which we are a part 
of, did not cooperate with us to maintain a seat for the United 
States. We ought to look at how to get the Europeans to work 
more cooperatively with us in the future on votes in the United 
Nations and more generally on securing the political and 
religious liberties of people all around the world that we hope 
all will enjoy the rights that we enjoy here in this country.
    Now, what should the United States do about our removal? 
Yes, it is embarrassing to the United States, but I also think 
this removal of our seat is also embarrassing to the United 
Nations and its credibility. I think that we, rather than 
pouting as a country or having a fit or walking away from the 
United Nations, I think we should look for ways to reassert our 
leadership on human rights issues.
    The United Nations needs the United States. They need our 
support in its attempt to control AIDS in Africa, to keep peace 
in Bosnia, Kosovo, and Macedonia, and to monitor existing 
agreements in the Middle East.
    The converse is also true. It is not as if they are running 
that policy. It is in the United States' interest. We are 
deeply interested in keeping the peace, in keeping peace in the 
Balkans and controlling the spread of infectious diseases. We 
are interested in fighting international terrorism and the 
proliferation of arms of mass destruction. In more general 
terms, the United States is very interested in promoting good 
relations with such countries as China that are most active in 
the United Nations.
    All of these objectives can be facilitated by the 
maintenance of strong ties between the United States and the 
United Nations. Now, the bottom line of all of this is 
Americans would like to know a lot of things as far as this is 
concerned. No. 1, we want to know how the United Nations can be 
effective and resolute in the future in promoting human rights 
regardless of what Commissions we may be on or off in the 
United Nations or anywhere else. That is very important, what 
are we going to do in the future.
    Part of this, we also want to, naturally, understand why, 
for example, we were removed. We are fortunate to have with us 
today the Under Secretary for Global Affairs, Paula Dobriansky, 
as the administration's witness. Having introduced her 
previously before this committee at her nomination, it is a 
pleasure to have you back before this subcommittee to testify. 
I hope that Secretary Dobriansky can speak to our human rights 
policies in the future even though the U.N. affairs are not 
directly your formal responsibility at the State Department.
    Also, since she oversees the State Department Bureau for 
Anti-Narcotics policy in addition to the Human Rights Bureau, I 
hope she can discuss the implications of the United States 
losing a vote for membership on the U.N. Narcotics Control 
Board. Interestingly, the Netherlands is on that board.
    Also, we have two excellent witnesses on our second panel. 
Nina Shea is Director of the Center for Religious Freedom at 
the Freedom House. She also serves on the Commission on 
International Religious Freedom and is the first Commissioner 
to be reappointed. Most relevant to the subject of this 
hearing, she served as a member of the U.S. public delegation 
to the annual session of the U.N. Human Rights Commission this 
spring.
    Based on first-hand observation and involvement in U.S. 
diplomacy at the Commission, she can tell us about that U.N. 
body's operations and how the EU nations conduct themselves at 
the Commission and how each could do more in the service of 
freedom.
    Our other outside witness is Tom Malinowski the Washington 
Advocacy Director of Human Rights Watch, a leading 
nongovernmental organization. Human Rights Watch is among a 
number of groups critical of the bullying role of the 
autocratic states within the Commission and of those nations 
who pledged to vote for the United States but did not, 14 out 
of the 43 pledging support. Fully one-third were faithless to 
us, and Americans and the United States Senate ought to know 
who they are and what were their motivations.
    Mr. Malinowski will make the case why the United States 
membership on the Commission is vital to both the Commission 
and to the United States policy. We will want to know why this 
removal of the United States happened, to see that it does not 
happen again. It is always important to look at the game films 
after the game to make sure that the same mistakes or problems 
do not arise in the future. That is important to know why.
    But most importantly, what I want to focus on in this 
committee is the future, the future and the positive, 
constructive action the United States can take, whether on the 
Human Rights Commission or with the United States' cooperation 
with other Western powers, but mostly of course finding any 
which way we can with strong resolve and credibility to advance 
the cause of human rights for people all over our Earth.
    On December 13, 2000, then-President elect George W. Bush 
spoke of his commitment to ``a bipartisan foreign policy, true 
to our values and true to our friends.'' That aim and how to 
better encourage our friends in the world to be true to our 
shared values of liberty, freedom, and self-determination will 
be the subject of this hearing.
    So seeing how Senator Boxer has not yet arrived, I would 
ask Ms. Dobriansky to please share with us her views and 
perspective of this issue.

STATEMENT OF HON. PAULA J. DOBRIANSKY, UNDER SECRETARY OF STATE 
    FOR GLOBAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Dobriansky. Thank you, Mr. Chairman. I plan to submit a 
full statement for the record, but I will provide now a 
condensed version of my statement.
    First let me say it is an honor to be here to discuss the 
Bush administration's democracy promotion and human rights 
policy and the importance of maintaining our leadership in this 
field. When you think back, U.S. commitment to human rights 
dates from the Declaration of Independence and our Nation's 
founding. It reflects our Nation's values and our deeply rooted 
belief in the importance of developing and maintaining 
democratic governments subject to the rule of law, that respect 
and protect individual liberty.
    At the same time, the defense of human rights clearly 
serves our national interest. As the history of the past 
century has shown, the strongest, most stable, tolerant, and 
prosperous countries are precisely those which respect 
universal human rights. For this reason, we have long made the 
promotion of human rights a focus of our foreign policy and our 
foreign assistance programs.
    Since the end of the Second World War, the United States 
has been without equal in articulating a vision of 
international human rights and having the grit to carry it out. 
Whether crafting the United Nations Charter and the Universal 
Declaration of Human Rights, championing freedom and democracy 
throughout the cold war, insisting on human rights in the 
Helsinki Final Act, compiling the Country Reports on Human 
Rights Practices for the past 25 years, or helping establish 
the Community of Democracies in Warsaw last year, the United 
States has been the country that has set the agenda and has 
done the heavy lifting.
    Throughout these years, our message has not wavered. 
Promoting democracy and protecting the individual against the 
excesses of the state is the policy of the United States. Our 
vision has come to be shared by many other states and is now a 
fundamental component of NATO, the Organization for Security 
and Cooperation in Europe, the Organization of American States, 
the Summit of the Americas, and in the basic laws of many 
states that have emerged since the end of World War II.
    Let me now turn to a subject that has been much in the news 
recently, and that is the United Nations Commission on Human 
Rights. You know that, with the U.N. Economic and Social 
Council vote in New York on May 3, the United States lost its 
seat for the first time since the Commission was created in 
1947. Last week President Bush said on Cuban Independence Day: 
``We might not sit on some Commission, but we will always be 
the world's leader in support of human rights.''
    The President is right. We did pay a price for taking 
forthright, principled positions at the Commission this year. 
Secretary of State Colin Powell spoke about this when he 
addressed the Senate Appropriations Subcommittee on Foreign 
Operations May 15 and he stressed that the future policy of the 
United States toward the Commission would be the result of a 
review and ultimately a decision by the President. This review 
is now under way within the administration.
    As the President said, the United States will remain 
committed to human rights. It will continue to be a crucial 
part of our approach to China, Cuba, Indonesia, the Balkans, 
Iran, Sudan, and all the other places where fundamental 
freedoms are at stake. We shall continue to be the world's 
leading advocate for democracy and human rights. We shall 
continue to meet foreign government officials and insist that 
our views on human rights be known. We shall speak up for the 
dissidents, victims of persecution, the tortured and the 
dispossessed. We shall continue to tell the truth when we 
submit our Country Reports on Human Rights Practices to 
Congress and to the millions who now access them via the 
Internet. We shall also continue our reports on International 
Religious Freedom, now in its third cycle, and a new report on 
Trafficking in Persons to be released on June 1.
    Is this easy? No. Is it always appreciated by our friends 
and allies? Unfortunately not. But it is necessary. To quote 
the President again: ``History tells us that forcing change 
upon oppressive regimes requires patience. But history also 
proves, from Poland to South Africa, that patience and courage 
and resolve can eventually cause oppressive regimes to fear and 
then to fall.''
    My message to you today is that the vote at ECOSOC has 
limited our role in one highly visible forum, but it has hardly 
crippled us. Those states which voted against us in the hope 
that they would prevent us from being forceful advocates for 
human rights were sadly mistaken. Indeed, in the policy review 
to which I earlier referred, we are taking a close look at new 
approaches and new opportunities to pursue our human rights 
objectives worldwide. We may be forced for a time to shift our 
tactics, but we will never abandon our goal.
    I would like to say a brief word about the proposal by some 
to link the payment of our arrears to the outcome of the 
Commission election. The administration believes strongly that 
any attempt to link U.S. payments to the U.N. now or in the 
future to U.S. membership in or support for the Commission is 
counterproductive. Not only will withholding money or adding 
additional conditions on arrears payments provide ammunition to 
our adversaries, but it will also frustrate our efforts to 
further U.S. political interests and push for reform of the 
institution and its agencies.
    While the Commission on Human Rights is far from a perfect 
institution, it has done much good over the years. It 
established Special Rapporteurs on country situations, like the 
Former Yugoslavia or Iraq, and on crucial thematic issues such 
as torture or the independence of judges and lawyers.
    We would caution against penalizing the United Nations, the 
U.N. human rights program, or the Office of the High 
Commissioner for the vote by a small number of U.N. member 
states in the Economic and Social Council over membership in 
the Commission on Human Rights. I strongly urge the committee 
to proceed very cautiously in this regard.
    Thank you.
    [The prepared statement of Ms. Dobriansky follows:]

             Prepared Statement of Hon. Paula J. Dobriansky

                     ``COMMITMENT TO HUMAN RIGHTS''

    Mr. Chairman, Members of the Foreign Relations Committee,
    It is an honor to be here to discuss the Bush Administration's 
democracy promotion and human rights policy and the importance of 
maintaining our leadership in this field. This is my first chance to 
address this committee since I became the Under Secretary of State for 
Global Affairs. I look forward to future discussions with you on these 
important issues. My purpose today is to highlight the Bush 
Administration's commitment to democracy and human rights promotion and 
the policies we intend to pursue in support of them.
    U.S. commitment to human rights dates from the Declaration of 
Independence and our nation's founding. This reflects our nation's 
values and our deeply rooted belief in the importance of developing and 
maintaining democratic governments, subject to the rule of law, that 
respect and protect individual liberty. At the same time, the defense 
of human rights clearly serves our national interest.
    As the history of the past century has shown, the strongest, most 
stable, tolerant, and prosperous countries are precisely those which 
respect universal human rights. For that reason, we have long made the 
promotion of human rights a focus of our foreign policy and our foreign 
assistance programs.
    Since the end of the Second World War, the United States has been 
without equal in articulating a vision of international human rights 
and having the grit to carry it out. Whether crafting the United 
Nations Charter and the Universal Declaration of Human Rights, 
championing freedom and democracy throughout the Cold War, insisting on 
human rights in the Helsinki Final Act, compiling the Country Reports 
on Human Rights Practices for the past 25 years, or helping establish 
the Community of Democracies in Warsaw last year, the United States has 
been the country that has set the agenda and has done the heavy 
lifting. Throughout these years, our message has not wavered. Promoting 
democracy and protecting the individual against the excesses of the 
state is the policy of the United States.
    Fortunately, that effort has been successful. The U.S. vision has 
come to be shared by many other states, and is now a fundamental 
component of NATO, the Organization for Security and Cooperation in 
Europe, and the Organization of American States and the Summit of the 
Americas, and in the basic laws of many states that have emerged since 
the end of World War II. It is increasingly an important factor in 
decisions of countries in other regions, for example in Africa.
    Let me turn now to a subject that has been much in the news 
recently: the United Nations Commission on Human Rights. I am sure you 
are all aware of the UN Economic and Social Council vote in New York on 
May 3, which resulted in the United States losing its seat for the 
first time since the Commission was created in 1947 under the 
chairmanship of Eleanor Roosevelt.
    As President Bush said on Cuban Independence Day last week at the 
White House:

          Last month, the UN Human Rights Commission called on Castro's 
        regime to respect the basic human rights of all its people. The 
        United States' leadership was responsible for passage of that 
        resolution. Some say we paid a heavy price for it, but let me 
        be clear: I'm very proud of what we did. And repressed people 
        around the world must know this about the United States: We 
        might not sit on some commission, but we will always be the 
        world's leader in support of human rights.

    The President was right: we did pay a price for taking forthright, 
principled positions at the Commission this year. Secretary of State 
Colin Powell spoke about this when he addressed the Senate 
Appropriations Subcommittee on Foreign Operations May 15, and he 
stressed that the future policy of the United States toward the 
Commission would be the result of a review and ultimately a decision by 
the President. This review is now under way within the Administration.
    As the President said, the United States will remain committed to 
human rights. It will be a crucial part of our approach to China, Cuba, 
Indonesia, the Balkans, Iran, Sudan and all the other places where 
fundamental freedoms are at stake. We are working ever closer with our 
friends and allies at the UN, the OSCE, OAS, NATO, and other 
multilateral organizations, and the State Department remains strongly 
committed to its round-the-clock, round the year, round-the-world human 
rights monitoring portfolio.
    We shall continue to be the world's leading advocate for democracy 
and human rights. We shall continue to meet foreign government 
officials, and insist that our views on human rights be known. We shall 
speak up for the dissidents, the victims of persecution, the tortured 
and the dispossessed. We shall continue to tell the truth when we 
submit our Country Reports on Human Rights Practices to Congress and to 
the millions who now access them via the Internet. We shall continue 
our reports on International Religious Freedom, now in its third cycle, 
and a new report on Trafficking in Persons to be released on June 1.
    Is this easy? No. Is it always appreciated by our friends and 
allies? Unfortunately, not. But it is necessary. It is worthwhile. To 
quote the President again:

          History tells us that forcing change upon oppressive regimes 
        requires patience. But history also proves, from Poland to 
        South Africa, that patience and courage and resolve can 
        eventually cause oppressive regimes to fear and then to fall.

    The vote by the member states of ECOSOC has limited our role in one 
highly visible forum, but it has hardly crippled us. Those states which 
voted against us in the hope that they would prevent us from being 
forceful advocates for human rights were sadly mistaken. Indeed, in the 
policy review, to which I earlier referred, we are taking a close look 
at new approaches and new opportunities to pursue our human rights 
objectives worldwide. We may be forced, for a time, to shift our 
tactics, but we will never abandon our goal.
    I would like to say a brief word about the proposal by some to link 
the payment of our arrears to the outcome of the Commission election. 
The Administration believes strongly that any attempt to link U.S. 
payments to the UN--now or in the future--to U.S. membership in or 
support for the Commission is counterproductive. Not only will 
withholding money or adding additional conditions on arrears payments 
provide ammunition to our adversaries, but it will also frustrate our 
efforts to further U.S. political interests and push for reform of the 
institution and its agencies. In the words of the President, ``a deal's 
a deal.''
    While the Commission on Human Rights is far from a perfect 
institution, it has done much good over the years. It established 
Special Rapporteurs on country situations like the Former Yugoslavia or 
Iraq, and on crucial thematic issues such as Torture or the 
Independence of Judges and Lawyers. These special mechanisms of the CHR 
are among the activities of the Office of the UN High Commissioner for 
Human Rights, former Irish President Mary Robinson, which also 
maintains field offices in trouble spots like Congo and Colombia.
    We would caution against penalizing the UN, the UN human rights 
program, or the Office of the High Commissioner, for the vote by a 
small number of UN Member States in the Economic and Social Council 
over membership in the CHR. I strongly urge the Committee to proceed 
very cautiously in this regard.
    Thank you.

    Senator Allen. Thank you, Secretary Dobriansky.
    The ranking member, possibly soon to be chairperson of the 
subcommittee, Senator Boxer, has fortunately graced us and now 
I would like to turn the time over to Senator Boxer for her 
remarks.
    Senator Boxer. Thank you so very much, Mr. Chairman. You 
are the chairman and I thank you very much for holding this 
hearing this afternoon. I welcome everyone here, including our 
witnesses. We really appreciate your being here on this 
important subject.
    I want to say for the record, Mr. Chairman, that you have 
really bent over backward to be fair and to work with me in 
ensuring that this particular issue has been handled in a 
bipartisan fashion. I hope that will be the hallmark of how we 
handle things together. Yesterday in the confirmation hearing 
for Howard Baker you spoke of the tradition of southern 
courtesy and I can personally say that you carry that spirit 
and I appreciate it.
    Today's hearing, the U.N. Human Rights Commission: The Road 
Ahead, has been called to examine the steps that need to be 
taken in order to ensure that we continue to be a voice for 
human rights and, frankly, from my perspective, that we regain 
a seat on that important body. I think that to do this we need 
bipartisan cooperation here, but we also need cooperation 
between Congress and the administration so we are singing from 
the same song.
    Earlier this month, we all know what happened to us to be 
removed from this Commission. It is very hurtful for us 
because, Madam Secretary, as you say, we are the leader in the 
world on human rights in so many ways. I think we were 
blindsided and I think it was an embarrassment, and we will not 
be on the Commission for the first time since it was 
established in 1947. Given that the United States and Eleanor 
Roosevelt in particular played such an important role in the 
creation of the Commission, it is I believe a shock to our 
prestige to be forcefully ousted by the vote.
    Look, I am angry about it. I cannot say that I am not. I 
understand why some people in the House would bet so upset as 
to say, well, we are not going to pay all of our dues. I just 
think that is not the right way to go, and in the questions I 
am going to ask you more about that, so I will not go into that 
now.
    But I do hope, Mr. Chairman, we will have a road map on how 
to regain the seat on the Commission. Madam Secretary, you 
surely were hit with this moments after you got your new 
position, so I know it is very difficult. I am glad that you 
are here, and I also am very glad that our second panel--we 
have Ms. Nina Shea, the director of the Center for Religious 
Freedom, who has written an article on the U.N. Human Rights 
Commission that was published in the Weekly Standard May 21; 
and also Tom Malinowski, the Washington Advocacy director for 
Human Rights Watch, which I believe is one of the most 
respected organizations in the world on the issue of human 
rights. I am so pleased that he is here.
    So again, Mr. Chairman, thank you, and I do have a number 
of questions, but I will withhold until you ask yours. I really 
appreciate this opportunity.
    Senator Allen. Thank you, Senator Boxer.
    Let me ask a few questions of you, Secretary Dobriansky. 
One, last August the Clinton administration was there in 
Warsaw--last June, excuse me, last June--and they started what 
was called the Community of Democracies initiative, with 
obviously other countries which were democracies. Would you 
find that as a more useful forum to improve human rights 
because its members would be by its nature and definition 
democracies? What do you think should be done? What is the Bush 
administration's view of what ought to be done with that 
concept of the Community of Democracies, and do you see that as 
being a viable forum, as well as bilateral efforts as far as 
the United States?
    Ms. Dobriansky. Well, I would say, Mr. Chairman, that in 
dealing with human rights issues worldwide one really has to 
use every means possible to try to promote this most important 
cause, be it through multilateral or bilateral channels. So I 
start with that very broad premise first.
    Given that, the Community of Democracies is one of the 
vehicles by which we could certainly reinforce our commitment 
and the commitment of others to human rights. The vehicle of 
the Community of Democracies provides a network and a standard 
for countries to become part of as democratic members.
    We find, of course, that democratic systems of government 
respect fundamental human rights and fundamental freedoms. They 
are not only respectful of their own societies, but are willing 
to try to commit themselves to ensure that that standard is 
respected worldwide. So, the Community of Democracies, I think, 
is an important initiative. It is one which is welcomed by this 
administration.
    One thing that we plan to do is to undertake a review of 
the Community of Democracies implementation structure. It had 
its first meeting last year and now we have some lessons to 
learn from that session. I think we could benefit from 
consultation with the nongovernmental community that was 
present at the first Community of Democracies meeting and with 
other participants.
    But simply put, it is a very important and useful vehicle 
and one that would be welcomed by this administration as an 
initiative.
    To your broader question, as I stated, I think that the 
most effective means of advocating human rights policy is to 
pursue not only a multilateral track--and there are a number of 
multilateral fora in which one can engage and express concerns 
about human rights issues--but at the same time to pursue a 
bilateral track as well. The difference is that in multilateral 
fora you usually have an opportunity to spotlight collectively 
human rights abusers. That is the greatest advantage of 
multilateral fora. Then on a case by case basis each 
multilateral forum is different in terms of the kind of impact 
or focus that it may have.
    In the case of bilateral efforts, I think there are two 
factors which are important here. First, as you know, the State 
Department issues the Country Report on Human Rights, which 
does provide a focus on our bilateral engagement, in which we 
discuss and point out human rights-related abuses with other 
countries. At the same time, there are individual cases that we 
may address with countries. So, the bilaterally track is much 
more specific and targeted. As you can see, both avenues must 
be pursued, not a single one.
    Senator Allen. Well, thank you. Turning to the strong 
statement by Senator Boxer as far as getting back on this 
Commission and your statement, and it seems like we are in 
agreement, we should not be pouting and leaving because we did 
not get on it, but we need to be resolved for human rights, but 
also make sure that, I think for the credibility of not only 
the United Nations Commission, but also for our country's 
leadership, we have to find out how to get back on there.
    I hate to dwell on the past, but it is important to 
understand how did we get knocked off. I have--and this is from 
the State Department--43 confirmed yes votes for the United 
States. There is a variety of countries: Angola, Morocco, South 
Africa, Uganda, China, Syria, Croatia, Czech Republic, 
Venezuela, Costa Rica, Austria, France, United Kingdom, and so 
forth--43. But obviously there were 14 faithless countries that 
promised to vote for the United States to be a member of the 
Human Rights Commission and then clearly broke their promise.
    I think we ought to know, we need to understand what their 
motivation is. I am not going to put into the record William 
Safire's article because there are a few things that I do not 
necessarily agree with, but he has conjectured in this early 
May article that appeared in various newspapers, including the 
New York Times. He said: ``The real reasons for slapping us in 
the face are obvious and immediate: First, to punish the United 
Nations for daring to ask the 53 nations of the U.N. group to 
criticize China's record of repression; and second, to 
humiliate the U.S. for opposing the Commission's recent vote 
for blaming Israel''--we opposed the Commission's recent vote--
``for blaming Israel for the war started by order of Yasser 
Arafat. The U.N. nations did not enjoy being shown up publicly 
as a pack of hypocrites in approving a dictatorship's offensive 
and condemning a democracy's self-defense. The enraged 
communists and their fellow U.N. travelers seized their chance 
to show what decides how freedom is to be restricted and 
morality is to be measured.'' He goes on to say why is there 
such silence and so forth.
    I think it is important for us to understand, to have an 
answer who they were, but not just to find out who they were, 
but figure out what are their motivations. He mentions 
commercial or political advantage. Why did they swap these 
votes by selling out the fundamental rights of fellow human 
beings in this situation?
    So could you share with us, or is it classified 
information, who were these 14 countries and why did they do 
so?
    Ms. Dobriansky. Mr. Chairman, the difficulty here is that, 
as you know, the vote is by secret ballot. So consequently, it 
is difficult to pin down precisely who voted and how, how an 
individual country voted, even how an individual member voted. 
That is what our problem is.
    As to the question more broadly of what happened, there was 
a vigorous effort certainly on our part, not only in 
Washington, New York and Geneva, and with all of the ECOSOC 
member states to advance our candidacy. But you had four 
countries, ours included, in the Western and Other Group vying 
for three spots and the end result was that, we had to have an 
election and were not able to form a consensus slate. This 
outcome resulted in competition and there was some trading of 
votes. The end result is that we lost.
    When I step back from this and evaluate what seems to have 
taken place, one conclusion that I have drawn is that I think, 
the outcome was a genuine surprise to all concerned. I would 
also add that I think some other countries actually took for 
granted that the United States would be a member of the 
Commission. We have been a member right from the outset. So 
given that, I think it will be very difficult to identify 
specific countries, because of the secret ballot. Consequently, 
I think that it will be very difficult to pin down who voted 
which way.
    Senator Allen. You mentioned trading votes. Do we know 
which countries were trading votes?
    Ms. Dobriansky. That, too, is difficult to pin down. Even 
if one country tells you prospectively that it will vote one 
way, it may have done something else. In fact, it is quite 
interesting to note that in some cases the actual ambassador of 
a particular country, even despite instructions, may have voted 
possibly a different way from the diplomatic instructions 
issued from capital.
    So consequently, I think that it is not really going to be 
possible, given the secret balloting, given what took place, to 
come out with a precise ledger as you are requesting.
    Senator Allen. Well, with that I am going to turn it over 
to Senator Boxer, who will undoubtedly ask you questions on how 
to make sure that the next vote next year has the United States 
on the Commission. Senator Boxer.
    Senator Boxer. Yes, thank you so much.
    We will sit as a nonvoting member, correct?
    Ms. Dobriansky. As an observer, correct.
    Senator Boxer. I gather from your very strong opening 
sentence you do not intend--we do not intend to just sit by and 
not speak out, correct?
    Ms. Dobriansky. That is absolutely correct.
    Senator Boxer. So one of the things, Mr. Chairman, we will 
be able to do is still have our voice. They have not kicked us 
off as a nonvoting member.
    Ms. Dobriansky. We can also co-sponsor resolutions. We just 
cannot sponsor them individually.
    Senator Boxer. I think that is very important.
    Have we gotten any suggestions from our allies on a path 
back?
    Ms. Dobriansky. We have been in consultation with our 
allies, particularly because of what has taken place. Clearly, 
it is important for us to continue that discussion, to have a 
common agenda, and also to look more specifically at the need 
for having a consensus slate.
    Senator Boxer. Good. So we are working toward that 
consensus slate. I think that is important because as the most 
powerful nation in the world we are always somebody's target, 
and I think being on a slate in a body like the U.N. is 
probably a good way to go about it.
    I was very pleased with Secretary Powell's initial 
response. His response is this happened, and he never backed 
off of human rights. He did not let his anger get in the way of 
the fundamental issue, which I believe you have carried out 
today very eloquently.
    I am concerned about the House of Representatives vote. I 
mentioned it in passing. I said I understood why people would 
be upset, but I think in the end it is not helpful if we now 
start pulling back dues as a punishment since that may have 
played a role, Mr. Chairman, in the anger, just the fact that 
we did not pay our bills, et cetera. So I know that the 
administration did not support the amendment in the House, but 
it is my understanding--and this is just from the press and it 
may not be accurate, so I want to ask you. The Post wrote: 
``Administration officials did not actively lobby against the 
amendment or contact Mr. Hyde to discuss it.'' Is that true?
    Ms. Dobriansky. We made countless calls to make clear our 
opposition more broadly, and many Members agreed with us. 
Others were looking for a way to basically vent at the loss of 
a seat. But we will be making our case clearly here if an 
amendment is offered.
    Senator Boxer. That was going to be my next comment, that I 
hope--I really believe that the Senate will respond a little 
differently, and particularly with the continued leadership of 
Secretary Powell, yourself, the President, to say that this is 
not the way to resolve things.
    I want to bring up another issue because it is very 
important to me and it is the Convention on the Elimination of 
All Forms of Discrimination Against Women and the Convention on 
the Rights of the Child. CEDAW has been ratified by 166 
nations, leaving the United States to stand with such nations 
as Afghanistan, Iran, and North Korea. Only the United States 
and Somalia have failed to ratify the Rights of the Child 
Convention.
    As far as I am concerned, it is a humiliation and I do not 
understand it. I do know there are colleagues here who read 
things into these conventions that I personally do not.
    Now, Secretary Powell has written to me and he said that he 
is willing to review CEDAW and consult back with me at a future 
date. Have you been asked by Secretary Powell to review the 
CEDAW treaty, including the work that was done by this 
committee when it was favorably voted out a long time ago on a 
vote of 13 to 5? Have you been asked by the Secretary to review 
that?
    Ms. Dobriansky. In fact, I would mention that with respect 
to both conventions that you referred to we are looking at and 
reviewing all aspects of these conventions.
    Senator Boxer. Good.
    [The following questions and answers were prompted by a 
question from Senator Boxer.]

 Responses of Hon. Paula J. Dobriansky to Additional Questions for the 
                Record Submitted by Senator Jesse Helms

    During the hearing about the United Nations Commission on Human 
Rights chaired by Senator George Allen on May 24, 2001, it emerged that 
Secretary Powell provided his written commitment to a Member of the 
Foreign Relations Committee to review the Convention on the Elimination 
of All Forms of Discrimination Against Women (CEDAW)
    The Chairman--whose request for the Department's treaty priorities 
has received no reply to date--was not previously aware of the 
Secretary's commitment concerning CEDAW.

    Question a. What commitments did the Secretary make concerning 
CEDAW?

    Answer. The Secretary has told the Committee that the Department is 
reviewing CEDAW.

    Question b. Has the Secretary made commitments to other Members 
concerning any treaty now pending before the Committee? If so, please 
provide full details.

    Answer. The Department is reviewing CEDAW and other treaties 
previously transmitted to the Senate in connection with the 
Administration's review of treaty priorities.

    Question c. What are the Department's treaty priorities?

    Answer. The Department welcomes the views of the Committee on all 
treaties, including CEDAW.

    Senator Boxer. Well, Mr. Chairman, it seems to me CEDAW, 
the Convention on the Rights of the Child, and the Land Mine 
Treaty, the Optional Protocol on Child Soldiers, which to put 
children out to be killed is something I think we ought to be 
taking the lead against. These are things I would like to see.
    Let me just read. Former Assistant Secretary of State for 
Human Resources Harold Koh has written: ``Although far less 
law-abiding countries have ratified international treaties on 
economic, social, and cultural rights, right of the child, 
discrimination against women, banning land mines, and an 
international criminal court, our Senate refuses to hold 
hearings on the wisdom of joining these instruments.''
    So I do not expect you today to take a position on these 
treaties. That would not even be appropriate for you to do. But 
I just say, given what has gone on with the Senate--and we 
never know from one day to the next who the chairman is going 
to be around here because, the truth be known, it could change 
that many times. So we are going to have to work together.
    But let me just announce today that if I have a chance and 
the honor to hold the gavel, I do intend to bring hearings on 
these various treaties, and I would encourage you and the 
administration to take a really hard look, because I cannot 
explain to my constituents when they raise their hand, and they 
do, why we are not taking action. Even if the Senate does not 
vote on them, Mr. Chairman, for some reason, I think it is our 
responsibility to look at them.
    So I just wanted the say that I am happy that you are 
taking a look at these and you could expect it is a possibility 
that we will be asking you to come back in the near future on 
these.
    I will just close with this final comment that kind of 
picks up on the Safire article a bit. That is that I do worry 
that, with our vote missing, that it is a problem, because we 
are willing to speak up when others will not, whether it is the 
Middle East or other places. There is a lot of politics, and I 
worry about that as well. But I am feeling better that we will 
be sitting at the table and we can speak out, even if we do not 
have that precious vote yet. I want to encourage the 
administration--well, really to underscore what you yourself 
said, that we will still be courageous with our voice, whether 
it is popular or unpopular, whether it is in the Middle East or 
it is in Ireland or Africa or wherever it may be.
    I want to thank you very much for your testimony today.
    Ms. Dobriansky. Thank you. May I make a comment on the 
issue of the arrears, the question or the comment you made 
earlier?
    Senator Boxer. Please.
    Ms. Dobriansky. I wanted to make three points, if I may, 
because we feel strongly about this. When you had posed the 
question about tactics, I think there are three key points that 
need to be kept in mind.
    First, by making this kind of linkage it is 
counterproductive, as I said in my statement. The reason why it 
is counterproductive is, first, because one would be tying 
together and not making a distinction between the United 
Nations at large and then specifically the action of one body 
of the United Nations, the ECOSOC, which comprises less than a 
third of the members of the United Nations as a whole.
    Senator Boxer. It is a good point.
    Ms. Dobriansky. The second point is that the linkage I 
believe, would defeat the very purpose that I think we would 
all intend to achieve. That is, it would literally add fuel to 
the fire and support those who would like to see us out of the 
picture and not take the aggressive and leadership role on 
human rights issues that we have. They would point to: Oh, this 
is another problem; here the United States is tying its arrears 
to securing a seat on the U.N. Human Rights Commission. 
Instead, it would just be a counterproductive strategy toward 
the end that we want to achieve.
    But third, you will be hearing from Tom Malinowski. One 
aspect in the human rights area that I think has always been 
important is the collaboration between the government and the 
NGO community. I was very struck by a letter that he had shared 
with me that was signed by all the human rights organizations 
to both Senators Helms and Biden, calling for no linkage, and 
asserting that this approach would be ultimately detrimental to 
our goals. I just wanted to underscore this point. I am sure 
that he will be saying more about the letter in his own 
testimony. This constituted an important signal from the NGO 
community.
    Senator Boxer. Thank you so much, Mr. Chairman.
    Senator Allen. Thank you, Senator Boxer, for your 
questions.
    Secretary Dobriansky, I am glad you wrapped it up with 
that, because that will be the next step. That issue will arise 
here. I would ask you if a fourth reason for not saying we are 
not going to pay some of these dues is that we have made some 
reforms. Senator Biden and Senator Helms, working in a 
bipartisan manner, have made significant--had the United 
Nations make significant reforms. Are they as much as we would 
want? No. But we do want to be engaged.
    A fourth reason I would query you on based on your most 
recent comment, would be in the event the United States said if 
we do not get on this committee or this Commission we are not 
going to pay, would that not be a precedent for other countries 
in the future to say, well, we are going to withhold, although 
they are not as financially involved as the United States may 
be? But you could have another country saying, well, if we do 
not get on this Commission we are not going to pay a fifth or a 
quarter of our dues. Would that be a precedent that some of 
them would just love to bring up in the future?
    Ms. Dobriansky. Mr. Chairman, I think you raise another 
valid point in the variety of reasons why we should not go down 
this path. We should maintain our leadership role and our 
leadership role entails giving what you said at the beginning, 
not undertaking any fits or pouting. I think that establishing 
these ties between the arrears payment and our membership on 
the U.N. Human Rights Commission is just simply 
counterproductive and would defeat the very purpose of what we 
want to achieve.
    Senator Allen. Thank you, Secretary Dobriansky. We very 
much appreciate you coming over and sharing your views with us. 
I know I am speaking for all members of this subcommittee and 
committee, we look forward to working with you and Secretary 
Powell to advance our shared values.
    Ms. Dobriansky. Thank you. I feel likewise.
    Senator Allen. Thank you.
    Senator Boxer. Thank you very much.
    Ms. Dobriansky. Thank you.
    Senator Allen. If the members of the second panel, Nina 
Shea and Tom Malinowski, would please come forward. I would say 
to Senator Boxer, I have introduced both Ms. Shea and Mr. 
MalinowskI earlier and their groups, and I would ask Nina Shea 
as a matter of courtesy, without objection, if Ms. Shea would 
first give us your views, please.

STATEMENT OF NINA SHEA, DIRECTOR, CENTER FOR RELIGIOUS FREEDOM, 
                 FREEDOM HOUSE, WASHINGTON, DC

    Ms. Shea. Thank you, Mr. Chairman, Senator Boxer. I am very 
grateful for this opportunity to testify about the recently 
concluded session of the U.N. Human Rights Commission, which I 
had the privilege of attending as a public member of the U.S. 
delegation. I have been an international lawyer for 22 years 
and over that period have attended many sessions of the U.N. 
Commission, including as a public member of the U.S. delegation 
in 1993.
    I appear today in my private capacity as the director of 
the Center for Religious Freedom of Freedom House and the views 
expressed in the testimony are my own. They do not reflect the 
views of the U.S. delegation, the Department of State, or the 
U.S. Government. But before I begin I would like to commend the 
very hard work of our State Department both in Geneva, which I 
saw first-hand, and then in Washington, who were giving us 
backup, and the leadership that the United States has taken at 
the Commission.
    Americans were shocked that our West European allies took 
the lead in ousting us from the Commission. Having observed the 
Commission first-hand, I was less surprised. Contrary to 
reports in the media, the ouster was not a reaction to American 
unilateralism on issues such as missile defense and global 
warming. Rather, I believe the Europeans' action reflects the 
abandonment of their historical commitment to human rights.
    Whereas in the past the Western European delegations were 
in the forefront of the Commission's work, highlighting 
injustices in South Africa, East Timor and Bosnia, for example, 
they now resort to euphemisms and half-truths. The United 
States stands virtually alone in striving to focus world 
attention on actual and specific violations of human rights. 
Repeatedly at the 57th Commission the U.S. had to break with 
the European Union in order to vote its conscience on issues 
like slavery in Sudan, religious persecution in China, and 
political repression in Cuba. The United States often stands 
alone, too, in opposing blatantly political condemnations of 
Israel.
    In my view, the loss of our seat on the Commission is meant 
to punish the United States for marching out of step. I believe 
the United States is deeply resented, not only by the despotic 
regimes that pack the Commission, such as Sudan, Libya, 
Algeria, Cuba, Syria, and Vietnam, but also by our European 
Union allies, who dislike being forced to vote in public on 
measures censuring countries with which they hope to conclude 
trade deals. A West European ambassador confidently told me 
that in a few years there will be no more finger-pointing on 
the Human Rights Commission.
    If the United States is to win back its seat in 2002 and 
prove him wrong, it will need to develop a strategy for 
reversing four trends that are hastening the Commission's 
decline into irrelevancy:
    First, a new dominant culture requires that the Commission 
pass its resolutions by consensus. I think about three-quarters 
of the resolutions are now passed by consensus at the 
Commission. The Europeans favor this, as do states with poor 
records on human rights. Consensus politics means that Sudan, 
say, gets to help draft the resolution censuring itself. The 
Khartoum Government, which Secretary of State Colin Powell 
recently called ``the biggest single abuser of human rights on 
earth,'' thus was able to have removed from the latest 
resolution all mention of slavery, even though the Commission's 
rapporteurs have documented the involvement of Khartoum's 
militias in the practice of slavery in seven consecutive annual 
reports. The EU-sponsored resolution on Sudan was so weak that 
the United States was forced to abstain and make a statement of 
protest.
    Second, the Commission, like many other U.N. forums, frowns 
on the practice of naming violators of human rights in open 
debate. However, during the recent 6-week session the 
Commission adopted five resolutions censuring Israel over U.S. 
objections. Israel was also the sole focus of a special session 
of the Commission last October at which a resolution was 
adopted condemning Israel for ``crimes against humanity.''
    The United States does not conform to this. Thus, during 
the discussion of human rights defenders the American 
intervention mentioned case after case of particular defense 
lawyers, journalists, clergy, and other human rights activists 
in specified countries who have been imprisoned or murdered for 
their work. In contrast, speaking for the EU, the Swedish 
Ambassador addressed the issue in platitudes and generalities. 
This same pattern held whether the subject under discussion was 
persecuted religious believers, vulnerable groups, or those in 
prison for exercising their international right to free 
expression.
    At most, EU delegates were willing to cite countries for 
failing to cooperate with the Commission rapporteur, though 
they never debated the actual findings of the rapporteur in 
plenary.
    The European Union states it prefers cooperation to public 
measures. French President Chirac came to the Commission and 
made a speech pointing to China, explaining that civilized 
dialog coaxed China to ratify the International Covenant on 
Economic, Social, and Cultural Rights. In making this argument, 
the French ignore China's recent labor camp detentions of 
Catholic bishops and thousands of Falun Gong practitioners, its 
destruction of a thousand temples and churches just before 
Christmas, and its revival of the practice of confining 
dissidents in psychiatric institutes.
    A German diplomat recently named Special Rapporteur for 
Sudan similarly cited the Commission's success at gaining that 
country's cooperation in establishing, with international 
funding, a committee to eradicate slavery. But of the tens of 
thousands of people thought to be enslaved in Sudan, this 
committee has rescued only 353, in a single, highly publicized 
event shortly after its establishment 2 years ago. Slaves, 
meanwhile, continue to be captured in government-sponsored 
raids faster than they are being released by the committee. 
Clearly, cooperation is a fiction invented to protect Europe's 
honor and to shield the reputations of abusive governments.
    Third, there is Europe's China problem. China is the 
government that stands to gain the most from the U.S. ouster, 
so much so that some observers believe eagerness to curry favor 
with this important trading partner was the Europeans' main 
motivation for running three candidates. Next year, with the 
United States out of the way, there will be no embarrassing 
resolution of censure that China will have to work hard to 
defeat. At the 57th session the United States was the lone 
sponsor of the draft resolution against China, having failed to 
garner the European support it had through most of the 1990's.
    China's open bullying and use of trade levers are well 
known at the Commission. After Denmark introduced a resolution 
citing China's human rights abuses in 1997, China threatened 
Denmark. That was the last time the United States was able to 
secure sponsorship of the measure. After Freedom House arranged 
a press conference with Chinese democracy activists during last 
year's session, China, with the support of Sudan and Cuba, 
brought proceedings to bar it from participating at future 
sessions.
    Fourth, resolutions dealing with economic rights for groups 
and even governments are proliferating. These rights as 
envisioned in the resolution are unachievable, depending as 
they would for their implementation on the wholesale transfers 
of wealth and technology from developed to underdeveloped 
nations. At the 2001 session a dozen resolutions passed, some 
at European initiative, on the rights to food, water, housing, 
HIV-AIDS drugs, education, development, and a raft of other 
economic issues.
    A ``right to development'' resolution, introduced by China, 
Mexico, and the Non-Aligned Movement contains many references 
to these transfers of wealth and technology. Incredibly, only 
Japan joined the United States in opposing this resolution. All 
of Western Europe voted for it, and one of the obstacles that 
is cited to development in this resolution was the protections, 
the international structure for protecting intellectual 
property rights. All of Western Europe voted for this 
resolution except the U.K., which abstained.
    In the past, the most enthusiastic champion of economic 
rights was the Soviet bloc. I believe then, as now, the main 
purpose served by debating such unenforceable rights is to 
deflect attention from a government's refusal to enforce civil 
and political rights of the individual.
    To reverse these four deplorable trends will be a challenge 
and an insurmountable one unless the Europeans reverse course. 
Eleanor Roosevelt and the other drafters of the Universal 
Declaration of Human Rights at the first Commission on Human 
Rights in 1947 believed that moral suasion could be a potent 
force for change. Since then Western Europe has made important 
contributions in advocating human rights abroad and has been an 
essential American partner at the Commission in giving a voice 
to the voiceless. If the European nations do not return to this 
tradition, in my view the Commission will have outlived its 
usefulness, whether or not the United States recaptures a seat.
    To conclude, I would like to emphasize that I am not 
suggesting here that the United States walk away from the 
Commission and not try to get its seat back. I am just trying 
to point out that the problems at the Commission are deeper 
than us losing our seat, they are deeper than the problems 
presented by the EU, but the EU is a key, I think, to solving 
and resolving these problems.
    That concludes my testimony.
    [The prepared statement of Ms. Shea follows:]

                    Prepared Statement of Nina Shea

    Thank you Mr. Chairman and Committee Members for this opportunity 
to testify about the recently concluded session of the United Nations 
Human Rights Commission, which I attended as a public member of the 
U.S. delegation. I have been an international human rights lawyer for 
22 years and over that period have attended many sessions of the UN 
Human Rights Commission, including as a public member of the U.S. 
delegation in 1993. I appear today in my private capacity as the 
director of the Center for Religious Freedom of Freedom House, and the 
views expressed in the testimony are my own. They do not reflect the 
views of the U.S. Delegation, the Department of State, or the U.S. 
Government.
    For over 50 years, the United States had been continuously 
reelected to one of the seats at the Commission either by acclamation 
when the Western Countries and Others Group (WEOG) to which the United 
States belongs presented a single slate of candidates to the Commission 
or by voted election when the number of candidates exceeded the number 
of vacant seats in the regional group. When France, Austria, and Sweden 
all insisted on competing for the three open Western seats this year, 
they forced the Economic and Social Council, which oversees the 
Commission, to resolve the matter by secret ballot.
    Americans were shocked that our West European allies took the lead 
in ousting us from the Commission on May 3. Having observed the 
Commission first hand, I was less surprised. Contrary to reports in the 
media, the ouster was not a reaction to American ``unilateralism'' on 
issues such as missile defense and global warming. Rather, I believe 
the Europeans' action reflects the abandonment of their historical 
commitment to human rights.
    Whereas in the past, the Western European delegations were in the 
forefront of the Commission's work, highlighting injustices in South 
Africa, East Timor, and Bosnia, they now resort to euphemisms and half-
truths. The United States stands virtually alone in striving to focus 
world attention on actual and specific violations of human rights. 
Repeatedly at the 57th Commission, the United States had to break with 
the European Union in order to vote its conscience on issues like 
slavery in Sudan, religious persecution in China, and political 
repression in Cuba. The United States often stands alone, too, in 
opposing blatantly political condemnations of Israel. In my view, the 
loss of our seat on the Commission is meant to punish the United States 
for marching out of step.
    I believe, the United States is deeply resented, not only by the 
despotic regimes that pack the Commission--such as Sudan, Libya, 
Algeria, Cuba, Syria, and Vietnam--but also by our European Union 
allies, who dislike being forced to vote in public on measures 
censuring countries with which they hope to conclude trade deals. 
Newspaper editorials from Copenhagen to Madrid have expressed 
satisfaction with the American ouster, sneering that go-it-alone U.S. 
behavior in international forums represents ``boorish'' isolationism. A 
West European ambassador confidently told me that in a few years there 
will be no more ``finger-pointing'' on the Human Rights Commission.
    If the United States is to win back its seat in 2002 and prove him 
wrong, it will need to develop a strategy for reversing four trends 
that are hastening the Commission's decline into irrelevancy.

  <bullet> First, a new dominant culture requires that the Commission 
        pass its resolutions by consensus. The Europeans favor this, as 
        do states with poor records on human rights. Consensus politics 
        means that Sudan, say, gets to help draft the resolution 
        censuring itself. The Khartoum government, which Secretary of 
        State Colin Powell recently called ``the biggest single abuser 
        of human rights on Earth,'' thus was able to have removed from 
        the latest resolution all mention of slavery even though the 
        Commission's rapporteurs have documented the involvement of 
        Khartoum's militias in the practice of slavery in seven 
        consecutive annual reports. The European Union-sponsored 
        resolution on Sudan was so weak that the United States was 
        forced to abstain and make a statement of protest.

  <bullet> Second, the Commission like many other U.N. forums frowns on 
        the practice of naming violators of human rights in open 
        debate. However, during the recent six-week session, the 
        Commission adopted five resolutions censuring Israel, over U.S. 
        objections. Israel was also the sole focus of a special session 
        of the Commission last October at which a resolution was 
        adopted condemning Israel for ``crimes against humanity.''

      The United States does not conform to this. Thus, during the 
        discussion of ``human rights defenders,'' the American 
        intervention mentioned case after case of particular defense 
        lawyers, journalists, clergy, and other human rights activists 
        in specified countries who have been imprisoned or murdered for 
        their work. In contrast, speaking for the EU, the Swedish 
        ambassador addressed the issue in platitudes and generalities. 
        The same pattern held whether the subject under discussion was 
        persecuted religious believers, vulnerable groups, or those 
        imprisoned for exercising the international right to free 
        expression. At most, EU delegates were willing to cite 
        countries for failing to cooperate with a Commission 
        rapporteur, though they never debated the actual findings of 
        the rapporteur in plenary.

      The European Union states it prefers ``cooperation'' to public 
        pressure. French diplomats point to China, explaining that 
        civilized dialogue coaxed China to ratify the International 
        Covenant on Economic, Social and Cultural Rights. In making 
        this argument, the French ignore China's recent labor camp 
        detentions of Catholic bishops and thousands of Falun Gong 
        practitioners, its destruction of a thousand churches and 
        temples just before Christmas, and its revival of the practice 
        of confining dissidents in psychiatric institutions. A German 
        diplomat recently named special rapporteur for Sudan similarly 
        cited the Commission's success at gaining that country's 
        cooperation in establishing, with international funding, a 
        committee to eradicate slavery. But of the tens of thousands of 
        people thought to be enslaved in Sudan, this committee has 
        rescued only 353, in a single highly publicized event shortly 
        after its establishment two years ago. Slaves, meanwhile, 
        continue to be captured in government-sponsored raids faster 
        than they are being released by the committee. Clearly, 
        cooperation is a fiction invented to protect Europe's honor and 
        to shield the reputations of abusive governments.

  <bullet> Third, there is Europe's China problem. China is the country 
        that stands to gain most from the U.S. ouster so much so that 
        some observers believe eagerness to curry favor with this 
        important trading partner was the Europeans' main motivation 
        for running three candidates. Next year, with the United States 
        out of the way, there will be no embarrassing resolution of 
        censure that China will have to work hard to defeat. At the 
        57th session, the United States was the lone sponsor of the 
        draft resolution against China, having failed to garner the 
        European support it had through most of the 1990s.

      China's open bullying and use of trade levers are well known at 
        the Commission. After Denmark introduced the resolution citing 
        Chinese human rights abuses in 1997, China threatened to make 
        the issue ``a rock that smashes on the Danish government's 
        head. Denmark, the bird that pokes out its head, will suffer 
        the most.'' That was the last time the United States was able 
        to secure cosponsorship of the measure. Beijing tolerates no 
        criticism of its human rights abuses on U.N. premises. After 
        Freedom House arranged a press conference with Chinese 
        democracy activists during last year's session, China, with the 
        support of Sudan and Cuba, brought proceedings to bar it from 
        participating at future sessions.

  <bullet> Fourth, resolutions dealing with economic rights for groups 
        and even governments are proliferating. These ``rights'' as 
        envisioned in the resolution are unachievable, depending as 
        they would for their implementation on wholesale transfers of 
        wealth and technology from developed to undeveloped nations. At 
        the 2001 session, a dozen resolutions passed, some at European 
        initiative, on the rights to food, water, housing, HIV/AIDS 
        drugs, education, development, and a raft of other economic 
        issues.

      A ``right to development'' resolution, introduced by China, 
        Mexico and the Non-Aligned Movement (alive and well a decade 
        after the Cold War), contains many references to these 
        transfers of wealth and technology. Incredibly, only Japan 
        joined the United States in opposing this resolution. All of 
        Western Europe voted for it except the United Kingdom, which 
        abstained. In the past, the most enthusiastic champion of 
        economic rights was the Soviet bloc. I believe that, then as 
        now, the main purpose served by debating such unenforceable 
        ``rights'' is to distract attention from governments' refusal 
        to enforce the civil and political rights of the individual.

    To reverse these four deplorable trends will be a challenge, and an 
insurmountable one unless the Europeans reverse course. Eleanor 
Roosevelt and the other drafters of the Universal Declaration of Human 
Rights at the first Commission on Human Rights in 1947 believed that 
moral suasion could be a potent force for change. Since then, Western 
Europe has made important contributions in advocating human rights 
abroad and has been an essential American partner at the Commission in 
giving a voice to the voiceless. If the European nations do not return 
to this tradition, in my view, the Commission will have outlived its 
usefulness whether or not the United States recaptures a seat.

    Senator Allen. Thank you very much, a very powerful insight 
for us all. Thank you, Ms. Shea.
    Mr. Malinowski.

 STATEMENT OF TOM MALINOWSKI, WASHINGTON ADVOCACY DIRECTOR FOR 
               HUMAN RIGHTS WATCH, WASHINGTON, DC

    Mr. Malinowski. Thank you, Mr. Chairman, Senator Boxer. It 
is a pleasure to be here. Thanks again for your invitation to 
testify on behalf of Human Rights Watch.
    I want to just take a moment to talk a bit about what 
happened and then focus a bit more, as you suggested, Mr. 
Chairman, on the road ahead and what should come next. First of 
all, as we all know, the United States lost a vote, and for the 
first time in more than 50 years it will not be a member of the 
Human Rights Commission.
    But as we started looking at this, we actually found 
something interesting that I have not seen in any of the news 
reports on what happened following Geneva. That is that this 
was not by any means the first contested election among the 
members of the so-called Western European Group and Other, of 
which the United States is a member. In fact, we looked at the 
votes between 1974 and 1989 and found that in all but one of 
those cases, every 3 years, the United States had to compete 
against largely its Western European allies for a seat on this 
Commission.
    In 1989, which I think was the last of these contested 
votes, the United States beat out Austria for third place by 
just three votes. Of course, this last year--well, this month 
Sweden beat out the United States for third place, once again 
by three votes. So the shift from the historical pattern, 
though obviously significant enough for the United States to 
lose its seat, is not quite as dramatic as some might have 
imagined. That is something that as people look at the strategy 
for the year ahead needs to be kept in mind.
    Second, as everyone has mentioned, the United States could 
not have lost this vote without losing at least some votes from 
among its closest friends and allies, not necessarily in Europe 
but throughout the world. So the really important question is 
how did this happen.
    As Nina Shea and others have mentioned, one factor 
certainly has been that the United States in recent years has 
generally been more willing than its allies on the Commission 
to confront the most abusive governments on earth. Nina spoke 
about the high value that the Europeans place on consensus and 
that has certainly been a problem, and the sort of embarrassing 
situation in which resolutions are negotiated with the target 
country itself.
    I suppose a cynic might say that the United States 
sometimes takes the heat for singling out abusers while others 
take the contracts. That would not be entirely fair since on 
many issues, such as Burma and Afghanistan to name two, the 
Europeans have taken a principled leadership role in Geneva in 
recent years, but they certainly do open themselves up to the 
charge at times.
    At the same time, Mr. Chairman, I think it is important to 
note that just because the United States has legitimate 
concerns about some of its European allies and partners that 
does not mean that they have no legitimate concerns about the 
United States. Many of America's closest democratic friends on 
the Commission have been deeply concerned in recent years, as 
Senator Boxer mentioned, that we are at times walking away from 
international treaties and agreements, including in some cases 
those meant to strengthen human rights.
    They point to issues like the death penalty and prison 
conditions and say that America is sometimes unwilling to apply 
to itself standards that it rightly applies to others. They see 
America as a country that sometimes throws its weight around in 
these international institutions without always being willing 
to carry its weight by paying its dues, and that has been 
mentioned as a problem in the past as well.
    Now, the United States is certainly not obliged to agree 
with its allies on all of these issues, but I think it is hard 
to deny that the concerns that I outlined and others do exist, 
and that is something that also must inform our judgment as we 
plan the road ahead.
    Now, what should the United States do in the coming year? 
First, as I think we have all agreed, the United States should 
not walk away from this Commission in disgust. We should not 
cede this arena to the likes of Sudan and others. As Secretary 
Dobriansky mentioned, despite the flawed membership of this 
institution, it has managed time and again over the years to 
speak for the world on behalf of those struggling for human 
rights, whether it is East Timor or Serbia or Sudan.
    For two straight years the Commission has condemned Russia, 
a permanent member of the U.N. Security Council, for its abuses 
in Chechnya. Resolutions critical of China have never passed, 
but they have helped to pressure Beijing to release political 
prisoners and to let human rights monitors onto its territory. 
This is why, of course, human rights violators work so hard to 
thwart the Commission's work, and this is why the United States 
needs to stay engaged.
    The United States can stay engaged. Even as a nonmember, it 
can speak out, lobby other members, draft and co-sponsor 
resolutions, and perhaps most important it can press for the 
implementation of existing resolutions. For example, this 
year's Chechnya resolution, which was a milestone, urged the 
Russian Government to hold accountable those responsible for 
attacks on civilians and to let human rights monitors into 
Chechnya.
    We are very pleased to see that Secretary Powell raised 
those precise concerns with Foreign Minister Ivanov when he was 
here last week, and they ought to be front and center when 
President Bush meets with President Putin when he goes to 
Europe in June. I hope you will reinforce that case along with 
us.
    Second, if the United States does campaign in the 
traditional way to regain the seat, it will probably succeed, 
but it has got to do so by convincing its friends, not coercing 
them. Again, as Under Secretary Dobriansky said, threatening to 
withhold the U.N. dues would only make that job harder.
    In short, Mr. Chairman, the United States can get back at 
the world or it can get back on the Commission, but it cannot 
do both. I hope and all of the human rights organizations that 
wrote to you hope that, if America's interest lies in advancing 
human rights, it will concentrate on the latter task.
    Third, Mr. Chairman, I think all of us should be pressing 
the remaining democracies on the Commission to help this body 
fulfill its mandate. France, Austria, and Sweden have won the 
privilege of membership on the Commission for the next 3 years. 
Very well. The onus should now be on them to help the 
Commission fulfill its mandate, and in particular, for example, 
to ensure that a China resolution is introduced in the coming 
year, as the European nations did actually in fact until 1997. 
They were the lead sponsors of that resolution.
    That is another issue that ought to be on the table when 
President Bush visits Europe and when he has his summit with 
the EU leaders in Stockholm in June. In fact, this whole issue 
of how the United States and Europe work together on human 
rights at the Commission and more broadly ought to be an 
important subject of discussion at that meeting, rather than 
waiting until we are 2 weeks away from the vote next year.
    The United States should also work with the European Union 
and others on the Commission to set minimal standards for its 
membership. Mr. Chairman, you suggested one idea. Another that 
we have long advocated is that no nation should gain a seat on 
the Commission unless it promises to give the U.N. human rights 
investigators free access to its territory.
    If the United States were to issue such a standing 
invitation itself, as 33 other countries have already done, it 
would set a strong example and strengthen its campaign to 
regain its seat on the Commission.
    Finally, it would strengthen America's case and the cause 
of human rights to show that the United States is still willing 
to work with others to improve international standards of human 
rights. Senator Boxer mentioned a number of the treaties that 
have been awaiting ratification and it would send a powerful 
signal to the world if this committee were to take action on at 
least some of them.
    One good place to start in addition to a number that 
Senator Boxer mentioned would be the Child Soldiers Protocol, 
which would do so much to bolster those who are campaigning 
to----
    Senator Boxer. I did mention that, just so you know.
    Senator Allen. Yes.
    Mr. Malinowski. You did? Good.
    Senator Allen. Did you not say that Senator Boxer mentioned 
that?
    Mr. Malinowski. I think I did. I said among the many that 
you mentioned.
    Senator Boxer. I thought you said I did not, among those I 
did not mention. Not that I am sensitive on the subject.
    Senator Allen. You certainly mentioned it. For the record, 
Senator Boxer mentioned it.
    Mr. Malinowski. Good. For the record, I will recognize it.
    Now let us ratify it. It would do so much good and it is 
one of those treaties, for example very importantly, that the 
Defense Department made clear last year that was fully in 
keeping with the U.S. interests. I hope that you all take 
action soon and I think it would help in this larger campaign 
that we are all interested in being part of.
    In conclusion, Mr. Chairman, I think we should all of 
course try to understand why this vote happened, recognizing 
that there are plenty of hard lessons to be learned on both 
sides of the Atlantic. Then, having learned those lessons, we 
should move on.
    In a few years I think we may look back on what now appears 
to be a debacle and see it as a golden opportunity to 
strengthen this Commission and its work in the cause of human 
rights around the world. Let us hope we can say it was an 
opportunity the United States helped to seize.
    Thank you.
    [The prepared statement of Mr. Malinowski follows:]

                  Prepared Statement of Tom Malinowski

    Mr. Chairman, members, thank you for your invitation to testify on 
behalf of Human Rights Watch. Let me begin with a few observations 
about how and why the U.S. lost its seat on the Commission on Human 
Rights--and then move to the road ahead.
    First, the United States lost a vote. For the first time, it will 
not be a member of the Commission. But this was not the first contested 
election among the so-called ``Western European and Other'' group. We 
have begun to look into a number of past votes, and found that at least 
between 1974 and 1989, the United States had to compete against its 
friends and allies for a seat five times, virtually each time its term 
on the Commission expired. In 1989, the United States received 33 
votes, beating out Austria--for third place--by just two votes. This 
year, Sweden beat out the U.S. for third place by three votes. So the 
shift from the historical pattern was not as great as some have 
imagined.
    Second, the vote took place not at the Commission on Human Rights 
itself, but in the UN Economic and Social Council. And the result can't 
be explained solely by the presence of egregious human rights violators 
like Sudan among the members of that body. The U.S. could not have lost 
without losing a few votes from among its closest friends and allies in 
Europe, Latin America, Asia and Africa. So it's not just abusers' 
solidarity, but the diminished solidarity between the United States and 
its democratic partners that ought to concern us. How has this 
happened?
    It is true that in recent years, the United States has generally 
been more willing than its allies on the Commission to confront the 
most abusive governments on earth, whether the issue has been human 
rights in China, Cuba, Chechnya or Iran. Europeans in particular have 
sometimes placed a higher value on ``consensus'' in Geneva than on 
producing hard-hitting resolutions. This entails actually negotiating 
country resolutions with the target country, leading to embarrassing 
situations like the one two years ago when Sudan's Ambassador to the 
Commission profusely thanked Germany for its approach to drafting a 
Sudan resolution. A cynic might say that the United States sometimes 
takes the heat for singling out abusers, while Europeans take the 
contracts. That would not be entirely fair, since on many issues, such 
as Burma and Afghanistan, Europe has played a leadership role at the 
Commission and there are countries the U.S. has shied away from 
targeting, too. But clearly, the Europeans do sometimes open themselves 
up to the charge.
    Nevertheless, Mr. Chairman, just because the United States has 
legitimate concerns about the approach its allies take in Geneva does 
not mean its allies do not have legitimate concerns about the U.S. 
America's self-image as the world's leading champion of human rights is 
simply not shared by many of its closest democratic friends on the 
Commission. They are deeply concerned that the United States is 
increasingly walking away from international treaties and agreements, 
instead of working with others to strengthen them--whether the issue is 
climate change, or landmines, or the International Criminal Court, or 
the many human rights conventions the United States has not ratified, 
or the largely symbolic votes on issues like access to AIDS drugs and 
the right to food on which the United States has been completely 
isolated in Geneva. They point to the death penalty, to conditions in 
U.S. prisons, and to the U.S. practice of ratifying human rights 
treaties without giving its citizens the right to invoke them in court 
(all problems that Human Rights Watch has repeatedly documented), and 
they say America is unwilling to apply to itself the standards it 
preaches to others. They see America as a country that throws its 
weight around, while refusing to carry its weight by paying its dues to 
the UN or participating in most of its peacekeeping missions.
    The United States is not obliged to agree with its allies on all 
these issues. But it is hard to deny that the concerns I described do 
exist, and that they make it harder for the United States to advance 
the cause of human rights and democracy with authority and credibility. 
And that is something that must concern us all.
    The question today is what should the United States do this year, 
both to advance human rights at the Commission and to regain its seat, 
should it choose to do so.
    First, the United States should neither accept the status quo on 
the Commission nor walk away in disgust. Despite its membership, this 
Commission has managed to speak for the world on behalf of those 
struggling for human rights from East Timor to Serbia to Sudan. For two 
straight years, the Commission has condemned Russia for its abuses in 
Chechnya. Resolutions critical of China have never passed, but have 
helped pressure Beijing to release political prisoners, to accept 
visits by UN rapporteurs, and to sign two important UN human rights 
treaties (one of which it has ratified). This is why human rights 
violators work so hard to thwart the Commission's efforts. This is why 
the United States should stay engaged.
    And the United States can stay engaged. Even as a non-member, it 
can speak out, lobby other members, draft and co-sponsor resolutions. 
It can still support the work of UN rapporteurs who are trying to shine 
a light on abuses throughout the world. Perhaps most important, it can 
press for the implementation of existing resolutions. For example, this 
year's Chechnya resolution urged the Russian government to hold 
accountable those responsible for attacks on civilians, and to let 
human rights monitors from the UN and OSCE into Chechnya. We were very 
pleased that Secretary Powell raised those issues with Foreign Minister 
Ivanov last week. They ought to be front and center when President Bush 
meets with President Putin in June. The United States and others should 
also be pressing Indonesia to abide by a resolution adopted by the 
Commission in 1999, by prosecuting those responsible for the violence 
in East Timor.
    Second, if the U.S. campaigns in the traditional way to regain its 
seat, it stands an excellent chance of winning. But it would be a 
mistake for the United States to claim an absolute entitlement to sit 
on the Commission, just as it was a mistake to assume its seat was 
unassailable. Nor should the U.S. threaten to withhold its UN dues. 
That would intensify the very resentment among key partners which 
contributed to the loss of its seat.
    In short, Mr. Chairman, the United States can get back at the 
world. Or it can get back on the Commission. But it cannot do both. And 
if its interest lies in advancing the cause of human rights, it should 
focus on the latter. That is the view of my organization and of just 
about every major human rights organization in the United States, which 
we expressed in a joint letter to Members of Congress two weeks ago; 
I'm pleased it is the Administration's view; and I hope we will see it 
reflected in the version of the State Department Authorization bill 
that this Committee approves.
    Third, Mr. Chairman, all of us--the Administration, the Congress, 
and human rights groups--should be pressing those democratic nations 
still on the Commission to help this flawed but vital body fulfill its 
mandate. France, Austria and Sweden have won the privilege of sitting 
on the Commission. Very well. Among other things, the onus must now be 
on them and other nations committed to human rights to sponsor a China 
resolution, as European nations did until 1997. This year, Sweden 
pledged EU diplomats would be more active in lobbying against China's 
``no action'' motion in Geneva. It's unclear if they were. Meanwhile, 
by the EU's own admission, its human rights dialogue with China has 
yielded no meaningful progress. The question of how to best coordinate 
action on China in the coming year should be on the table when 
President Bush holds his summit with the EU in Stockholm this June.
    The United States should also work with the EU and others on the 
Commission on Human Rights to set minimal standards for its membership. 
At the very least, no nation should gain a seat unless it promises to 
allow the UN's human rights investigators free access to its territory. 
If the United States were to issue such a standing invitation itself--
as 33 other nations have already done--it would set a strong example, 
and strengthen its campaign to regain its seat.
    Finally, it would strengthen America's case and the cause of human 
rights to show that the United States is still willing to work with 
others to improve international standards of human rights. It doesn't 
help American diplomats in Geneva that the United States is the only 
country in the world, apart from Somalia, not to have ratified the 
Convention on the Rights of the Child. The United States has not yet 
ratified the Convention on the Elimination of All Forms of 
Discrimination against Women, the Child Soldiers Protocol, the 
International Convention on Economic, Social and Cultural Rights, and 
Protocol I of the Geneva Conventions. Early action by this Committee on 
at least one of those treaties would send a powerful and welcome signal 
to the world. A good place to start would be with the Child Soldiers 
Protocol, which would bolster those campaigning against the use of 
children in warfare around the world, and which the Defense Department 
has said is fully in keeping with U.S. national interests.
    Living up to the highest human rights standards at home is just as 
important. The United States should be proud of its strengths, but not 
so defensive about its weaknesses that it shuts out the concerns of its 
closest friends about conditions within its borders.
    In conclusion, Mr. Chairman, I think we should all try to 
understand why this vote happened, recognizing that there are plenty of 
hard lessons to be learned on both sides of the Atlantic. And then we 
should move on. In a few years, we may look back on this experience, as 
troubling as it may be, and see it as a golden opportunity to 
strengthen the Commission and its work and the cause of human rights. 
Let's hope we can say it was an opportunity the United States helped to 
seize.

    Senator Allen. Thank you, Mr. Malinowski, for your insight 
and cogent remarks. Both witnesses, Ms. Shea, Mr. Malinowski, 
we thank you so much for your insight and very articulate 
stands.
    We are probably going to have a vote very shortly. So I am 
not going to hold you up, but I would like to ask you all a few 
questions. Mr. Malinowski, you brought it up in your remarks as 
far as--it seems like it is fairly hard to get this Commission 
ever to condemn anyone. Ms. Shea was talking about this 
consensus approach, which does not seem to really work very 
much as far as--the European approach of consensus. You were 
talking about various things.
    Now, on these other treaties, they are all worthy of 
looking into. I do not think any of us want to cede our 
sovereignty of our country to any international body. However, 
in the event you can get such a disparate group of individuals 
and countries with maybe disparate values as well to actually 
condemn a country, what would you think the chances would be to 
say, well, that country so long as, say for a period of 3 years 
or 4 years--I do not know, even 2 years--could not be on the 
Human Rights Commission?
    If that were actually put to a vote, which would be very 
logical--how can you be on a Human Rights Commission? Sudan 
drafting condemnation of slavery of course taking slavery out 
of it? And all of that, all those machinations. It would seem 
to me very logical that any country that actually gets 
condemned, which is very rare and very hard to get, should not 
be on that Human Rights Commission.
    Now, if that was taken to a vote--and I assume you all 
endorse such a concept--do you think it has any chance of 
passing?
    Mr. Malinowski. Well, I think it would be very hard. But 
just because it is hard does not mean it is not worth pursuing.
    Senator Allen. Right.
    Mr. Malinowski. That is what I would say about just about 
any important human rights issues. You stand up for your 
principles and push hard, and you are going to win some and you 
are going to lose some. That ought to be our attitude overall 
in our approach to this Commission.
    Senator Allen. So you would support such an idea, though, 
your organization?
    Mr. Malinowski. We would have to look at it. It would have 
interesting implications. You would have to look at the range 
of countries being condemned right now. You might want to--
folks have mentioned Israel, for example. I think you might 
want to look at a number of implications that that would have. 
I think in principle it is something that we would consider to 
be quite promising.
    Senator Allen. Well, is Israel on this Human Rights 
Commission?
    Mr. Malinowski. Not currently, no.
    Ms. Shea. No. It cannot go on the Commission. Israel has 
never been on the Commission. It cannot go on the Commission 
because it has not been part of a regional group. The way it is 
structured is by regional groupings. A certain number of 
representative countries get to go on every year from each 
group. So Israel is completely off the Commission, does not 
have a voice; it cannot judge, it can be judged.
    It is an interesting idea that you propose. However, I am 
not optimistic about it. I just want to say briefly that the 
phenomenon we are seeing now is the bad guys pack this 
Commission. They see it in their interest to get on the 
Commission and help steer it away from themselves and help 
shield themselves from scrutiny and from criticism. So that is 
the problem with proposing that anyone who is the subject of a 
resolution go off the Commission.
    You would not get any more resolutions singling out 
countries except maybe Israel. I think that is the way it would 
go.
    Senator Allen. Well, as a matter of principle I like what 
Mr. Malinowski said, is you fight for principles. Even 
sometimes you cannot win them, but you fight for those 
principles. Maybe it would have to be prospective, because if a 
country is for a period of time subject to one of these 
censures or resolutions for violations of human rights, for a 
period of time--things change. Some countries do reform, and we 
have seen that in recent years.
    Maybe you would not have it applicable to any currently on, 
but by the next time there is an election, if they are 
censured, they can be on it.
    Now, is Israel--I was looking at this list of the 43 
confirmed yes votes. Where would--since Syria is considered in 
Asia, is Israel considered in Asia, that Asia group.
    Ms. Shea. Not for the U.N. purposes, no. There is some talk 
about sticking them in the Western Group, but they do not have 
a regional group in Geneva right now.
    Senator Allen. Well, Turkey is in the Western Group, I 
believe. Maybe not.
    I just want to mention, you are saying Israel is not 
allowed in the membership?
    Ms. Shea. That is right.
    Senator Allen. Is that because they are not allowed to vote 
or they are simply not eligible?
    Ms. Shea. They are not--they are an observer state. They 
are a member of the United Nations, but because this is done by 
region these seats are rotated every 3 years.
    Senator Allen. Right, I understand.
    Ms. Shea. Three-year terms. In Geneva, it is not a member 
of any region and it does not get to go on.
    Senator Allen. Is there a reason why Israel is not a member 
of any region, other than maybe--well, I will just ask the 
question. You have Syria, which borders Israel, as we all know, 
is in the Asian Region. Turkey I believe--I am not sure which 
group Turkey is in. I thought they were in the Western Group.
    Ms. Shea. There was an effort to get them to get them into 
the Western Group, the WEOG, the Western Europe and Other 
Group, bloc in New York. But I think that it has not been 
possible that they can stand for election to the Commission. I 
think that is something the United States advocates--I am sorry 
the State Department is not here to answer that question, 
because they know the different policy operations. All I do 
know is that they have not been on the Commission and they are 
not part of the Asian Group.
    Senator Allen. Well, judging by their friends in the Middle 
East, they would probably not get on any slate out of the 
Middle East. We are talking about getting a slate for the 
Western Europe and Other Group states, which would include, 
obviously, Western Europe, the United States, Canada, Malta, 
and I believe Australia and New Zealand.
    It seems to me that Israel ought to be at least able to 
compete. It is not the subject of this hearing, but that is an 
interesting point.
    Ms. Shea. Israel is an exception in many ways. It has its 
own agenda item in the Commission agenda. Not only can it be 
raised under other agenda items like every other country, but 
it has its own agenda item just earmarked for it. Three of the 
resolutions of the five this year were brought against it under 
that agenda item.
    I think, though, the problem that you are trying to get at 
is this composition, and it is something we all have to grapple 
with. I am not sure what the answer is, but I am beginning to 
move in the direction that it is the structure of this body 
that is the problem, the regional grouping is the problem 
itself, and that it is the same for ECOSOC and it is also true 
for the NGO Committee, which now is packed with these rogue 
states. It is a den of thieves, it is a rogues gallery. It is 
packed with these countries.
    Freedom House, my own organization, is in the dock for a 
technicality regarding a press briefing, by Sudan, China, and 
Cuba.
    Senator Boxer. Are you done?
    Ms. Shea. Yes.
    Senator Allen. Well, thank you.
    We are going to have a vote very shortly, a quorum call.
    Senator Boxer. We will probably need to go soon.
    First I want to thank both of you, because I think you were 
both very clear, provocative I think, in making me think in new 
ways.
    Ms. Shea, I found your article and your testimony extremely 
interesting. I would make just a couple of comments. You 
presented some really interesting points. The point about China 
is really interesting and it always poses a dilemma for us the 
way we have to deal with China.
    It is interesting because we have been trying to, trade 
with China, but yes, at the same time, not. I believe, if you 
are a friend of a country or you are trying to be a friend to a 
country, then you tell it like it is. We have tried to do that 
through the Clinton administration and the Bush administration.
    Now with the Europeans perhaps having some motives that are 
against ours--it is an interesting thing I had not thought 
about. So thank you for bringing that up.
    I would say that in writing why you think there were 
problems with the Commission, the fourth one you said is 
``resolutions dealing with economic rights.'' I understand your 
point, but I would caution you on one thing. I think when sick 
people ask for a right to HIV-AIDS medicines, I do not put that 
in the same category as I do a good job or even housing. I 
think that is something that we cannot really do. But we can do 
more on HIV-AIDS, and I think that to have a resolution that 
says every single person deserves to have access, even though 
it may be difficult for us, I would not condemn that in the 
same breath as I would other things. It is just an opinion, and 
we may disagree, but I wanted to put that out, because 
suffering is suffering and that is suffering.
    A couple of other points I would make. One goes to the 
chairman's point about giving up sovereignty, that he kind of 
threw that out there, which has been a line that I have faced 
since I have been in the minority around here, to not even--
first of all, I would say even if what you say is accurate, and 
it may be and it may mean we do not do certain treaties. We 
ought to a least have some hearings and take a look at that 
question and measure that against what would be gained.
    Let me give you an example. On the Child Soldiers treaty, 
what kind of sovereignty are we giving up. We would never, ever 
send children out to war. I cannot imagine any circumstance 
where we would put a child out on the battlefield.
    So therefore, when we signed onto that protocol it seems to 
me that we only benefit and, I would say to my chairman, 
imagine our soldiers in the field fighting against 14-year-old 
or 13- or 12-year-old children in battle gear who would be 
shooting at them. Now, we have already heard from Senator 
Kerrey and others as well that war memories come back to haunt 
us. I think that is one example. I could give you others, but I 
will not bore you, where I do not think that we give up our 
sovereignty because we would not do that. What we are doing in 
these treaties that I mentioned, unless I am missing something, 
but I do not think so, is that we are taking our values really 
that are embodied in these treaties.
    So I do not think we give up anything, and I think we gain 
a lot, because if other countries accept our values that is 
what leadership is all about. But I do think it is a legitimate 
question. I look forward to having hearings on these treaties 
so we can look at them further.
    The last point I want to make is, I once read this little 
book entitled, ``Everything I Learned, I Learned in 
Kindergarten.'' Did anyone read that? It was a best-seller. It 
talks about how we never change, how we are always the same 
since kindergarten. It seems to me when we look at some of 
these things that happened--voting us off this Commission--I 
think there was a lot of pique and anger in that. I think it 
goes--nobody has mentioned these things, so I am going to 
mention these things.
    When we backed off of Kyoto, when we said we were going to 
walk away from the ABM treaty, to not recognize that that had 
an impact on our European friends is a bit naive. I think they 
were annoyed.
    Now, I do not know who walked away from us and I would be 
furious if it was--certainly some of our friends did. I did not 
agree with backing off from Kyoto or the ABM treaty. But there 
is no reason for grownups to respond by saying: Well, now we 
are going to kick you off the Human Rights Commission as well 
as, by the way--were we not also kicked off narcotics control?
    Senator Allen. Right.
    Senator Boxer. So I think there is a lot to be learned. 
Then when my colleagues in the House decide in a fit of pique 
that they are going to withhold all dues from the United 
Nations, you kind of perpetuate the cycle of: I do not like 
what you are doing, so I am going to punish you; and you do not 
like what I am doing and you punish me. Then we go through this 
silly thing about what you learned in kindergarten and one 
hopes can get beyond that.
    But I just want to say, Mr. Chairman, I think this was 
really good, that you called this hearing. There are not a lot 
of cameras in the hearing room today. This is not something 
that is on the front page. It was when it happened. But I think 
your dedication in dealing with this issue, I really admire and 
I really share, and I hope, that we will be able to continue to 
work together to make sure that the United States does not give 
in on the things that it believes in, because that would be 
terribly wrong.
    I do think Ms. Shea makes a good point: Do we have to say 
at some point this Commission has outlived its usefulness? I 
hope we never reach that point, because I have come to a belief 
that, even if it does not operate the way we would like, at 
least it is a forum. I kind of feel this way about the U.N. You 
have brought up a couple of times the issue of the Middle East 
and how unfair things can be. I raised the issue of China and 
the fact that people are afraid to call them, and you certainly 
did, and you did too, Mr. Malinowski.
    So the point is we get frustrated, but at least it is a 
place that we can go and we can say: These violations are 
occurring and you, the Commission, may not vote it out, you may 
cover it up, you may use an excuse that you are going by 
consensus, but we the United States, are going to call it the 
way we see it. At least it is a forum and, even without a vote, 
which is bad, we are there to do it.
    So I am going to work with you here, with the 
administration, and I hope we can get the United States back on 
the Commission. But even if we do not, I think the contribution 
the two of you have made today to give us a little more insight 
is extremely helpful.
    Thank you.
    Mr. Malinowski. Thank you, Senator.
    Senator Allen. Thank you both.
    Senator Boxer, thank you for your remarks. When I referred 
to sovereignty on some of the comments Mr. Malinowski made, I 
was just thinking, gosh, we are going to get U.N. observers 
determining our state laws. That does give me some trepidation.
    As far as children in the military, clearly I am not saying 
that violates our sovereignty. We in Virginia do remember a 
Battle of New Market in 1864 where there were young soldiers 
from VMI, cadets, that were thrown into battle, and that is not 
something we ever hope to see within our country or outside of 
our country again, and people fighting to protect their homes 
or for their causes.
    I would say I got a message here from staff: The treaties 
Mr. Malinowski and Senator Boxer are talking about are on our 
committee calendar. I do think it is important that, regardless 
of people's views, we ought to have them discussed here and 
have people hear the arguments pro and con and the 
implications.
    The Secretary of State has not yet replied to Chairman 
Helms' request for the administration's treaty priorities. I do 
think, and I share it with you, it is important to see if we 
can find a consensus here in this country in the coming months 
as far as these pending treaties. Maybe you all will be back on 
this before the full committee. So thank you all for taking the 
time to be here.
    Senator Boxer. Mr. Chairman, I have to--our chairman, he is 
so good. The actual note said: ``The treaties Mr. Malinowski 
and B. Boxer are plugging are all on the calendar.'' And you 
know what, you are right. We are plugging them.
    Senator Allen. I thought I would use more diplomatic 
language.
    Senator Boxer. Well, that is why you chair this 
subcommittee.
    Senator Allen. Well, with that, thank you all so very much. 
Senator Boxer, it is a pleasure working with you and we will in 
the future.
    Hearing adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
